     Department of Homeland Security

     ��������������������������



  Independent Review of U.S. Customs and Border 

     Protection’s Reporting of FY 2013 Detailed 

              Accounting Submission 





OIG-14-41                             February 2014

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


   
                                      FEB 14 2014 
 
MEMORANDUM FOR:	             Eugene H. Schied 
                             Assistant Commissioner 
                             U.S. Customs and Border Protection 
 
FROM:	                       Mark Bell 
                             Acting Assistant Inspector General for Audits 
 
SUBJECT:	                    Independent Review of U.S. Customs and Border 
                             Protection’s Reporting of FY 2013 Detailed Accounting 
                             Submission 
   
Attached for your information is our final report, Independent Review of U.S. Customs 
and Border Protection’s Reporting of FY 2013 Detailed Accounting Submission. U.S. 
Customs and Border Protection’s management prepared the Detailed Accounting 
Submission and related disclosures to comply with the requirements of the Office of 
National Drug Control Policy Circular, Accounting of Drug Control Funding and 
Performance Summary, dated January 18, 2013.   
 
We contracted with the independent public accounting firm KPMG LLP to perform the 
review. KPMG LLP is responsible for the attached independent accountants’ report, 
dated February 10, 2014, and the conclusions expressed in it. We do not express an 
opinion on the Detailed Accounting Submission and related disclosures. This report 
contains no recommendations.  
 
Consistent with our responsibility under the Inspector General Act, we will provide 
copies of our report to appropriate congressional committees with oversight and 
appropriation responsibility over the Department of Homeland Security. We will post 
the report on our website for public dissemination.    
         
Please call me with any questions, or your staff may contact Sandra John, Acting Deputy 
Assistant Inspector General for Audits, at (202) 254‐4100.   
 
Attachment 
                               
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                                     Independent Accountants’ Report


Deputy Inspector General
U.S. Department of Homeland Security:

We have reviewed the accompanying Detailed Accounting Submission of the U.S. Department of
Homeland Security’s (DHS) Customs and Border Protection (CBP) for the year ended September 30, 2013.
CBP’s management is responsible for the Detailed Accounting Submission.

Our review was conducted in accordance with attestation standards established by the American Institute
of Certified Public Accountants, and applicable standards contained in Government Auditing Standards,
issued by the Comptroller General of the United States. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the Detailed Accounting
Submission. Accordingly, we do not express such an opinion.

Management of CBP prepared the Detailed Accounting Submission to comply with the requirements of the
Office of National Drug Control Policy (ONDCP) Circular, Accounting of Drug Control and Performance
Summary, dated January 18, 2013 (the Circular).

Based on our review, except as noted below, nothing came to our attention that caused us to believe that
the Detailed Accounting Submission for the year ended September 30, 2013, referred to above, is not fairly
stated, in all material respects, in conformity with the criteria set forth in the Circular.

Management of CBP has used assumptions to compute obligations by Drug Control Decision Units, as
presented in the Table of FY 2013 Drug Control Obligations (the Table). Some assumptions are based on
surveys complete in prior years. While CBP management has represented that the assumptions used
continue to be valid for purposes of computing obligations presented in the Table, we were unable to
perform review procedures supporting that representation.

This report is intended solely for the information and use of the management of DHS and CBP, the DHS
Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and should not be used by
anyone other than these specified parties.



February 10, 2014




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
                                                                   1300 Pe1msylvania Avenue NW
                                                                   Washington, DC 20229


                                                                   U.S. Customs and
                                                                   Border Protection
    FEB 10 2014


Mr. R. Gil Kerlikowske
Director, Office ofNational Drug Control Po licy
Executive Office of the President
Office ofNational Drug Control Policy
Washington, DC 20503


Dear Mr. Kerlikowske:

Enclosed is the U.S. Customs and Border Protection (CBP) Fiscal Year (FY) 20 13 Detailed
Accounting Submission on National Drug Control Funding. In FY 20 13, CBP reported direct
obligations of approximately $2,234 million.

If you have any questions or would like additional information, please contact me at
(202) 344-2300, or a member of your staff may contact Mr. Sean M ildrew, Executive D irector,
Budget Directorate, at (202) 344-2210.



   ~9 . :/ktulLL(j
Deborah J. Schilling
Chief Financial Officer

Enclosure
                    U.S. DEPARTMENT OF HOMELAND SECURITY
                      U.S. CUSTOMS AND BORDER PROTECTION
        Detailed Accounting Submission of Fiscal Year (FY) 2013 Drug Control Funds

DETAILED ACCOUNTING SUBMISSION

A    T a bleo fF'ISCa I Y ear 2013 D rug C on t ro I Obr1gatwns
                                      (Dollars in Millions)
                                                                               FY 2013

Drug Resources by Budget Decision Unit and Function
  Salaries & Expenses
          Intelligence                                                                $ 186.146
    Border Security Insp ection and Trade Facilitation                                $168.022
    Border Security and Control between Ports Of Ent1y                                 $ 18.124


           Interdiction                                                             $ 1,332.95 5
    Border Security Inspection and Trade Facilitation                                $803.40 I
    Border Security and Control between Ports Of En tty                              $499.694
    Headquarters Nlanagement & Administration                                          $29.860
Total, Salaries and Expenses                                                       $1.519.101
  Air & Marine Interdiction
          Intelligence                                                               $ 14 1.410
          Interdiction                                                               $500.486
Total, Air & Marine Interdiction                                                     $641.896
Automation Modernization
       Intelligence                                                                    $ 11.670
       Interdiction                                                                    $27.294
Total, Automation Modernization                                                        $38.964
Border Security Fencing Infrastructure & Technology (BSFIT)
         Interdiction                                                                  $34.322
Total, Border Security Fencing Infrastructure & Technology                             $34.322
    Total Obligations                                                              $2,234.282
    High Intensity Drug Traffic Area (HIDTA)
          Intel! igence                                                                 $0.008
          Interdiction                                                                  $0.221
  Total, High Intensity Drug Traffic Area                                                $0.229
Note: Drug resources broken down by u111t and functton as reflected 111 new budget structure
enacted in FY 20 13 Depattment of Homeland Security appropriation bill.
Page2




1.   Drug Methodology

U.S. Customs and Border Protection (CBP) is a multi-mission agency that calculates obligations
by budget decision unit and function, pursuant to an approved drug control funds calculation
methodology. On the basis of past practice, six organizations within CBP, the Offices of Border
Patrol (OBP), Field Operations (OFO), Information Technology (OIT), Training and
Development (OTD), Technology Innovation & Acquisition (OTIA), and Air and Marine
(OAM), were provided with guidance on preparing submissions for the Fiscal Year 2013 annual
reporting of drug control obligations. OBP, OFO, OIT, OTD, OTIA, and OAM were asked to
estimate what portion of their activities is related to drug enforcement. The estimates are based
on the expert opinions of operational and programmatic staff from the offices. OIT, OFO, OBP,
and OAM attribute their resources to both intelligence and interdiction functions while OTIA
and OTD attribute their resources solely to interdiction.

The Drug Control Obligations table is based on actual obligations for each decision unit and
organization named above. The obligation reports are generated by data reported in CBP's DHS
approved accounting system, Systems Applications and Products (SAP). SAP is a fully
integrated Enterprise Resource Planning system that CBP uses to record and report obligations.
Each organization uses SAP to report their actual annual obligations. All six organizations have
specific missions and develop their own methodology for calculating their drug control activities
and resources. Each organization multiplies its drug control percentages to its actual total
obligations to calculate drug control obligations.

In the FY 2013 Department of Homeland Security appropriation, Congress enacted substantial
changes to CBP's Program, Project, and Activity (PPA) structure within the Salaries and
Expenses (S&E), Automation Modernization, and Air and Marine appropriations. This new PP A
structure was not included in CBP's FY 2013 Congressional Justification. This new structure
altered the appropriation source of funding for many ofCBP's organizations. For example, drug
control funding for OIT previously came from the Salaries & Expenses (S&E) appropriation. It
now comes from the Automation and Modernization appropriation, which did not contribute
drug control resources before the PPA restructure. CBP's drug control obligations table provides
a breakout ofFY 2013 funding by this new PPA structure.

OFFICE OF BORDER PATROL

OBP is responsible for controlling almost 6,000 miles of land borders between ports of entry
with Canada and Mexico, and nearly 2,1 00 miles of coastal waters surrounding the Florida
Peninsula and Puerto Rico. There were 21,191 Border Patrol agents, as of September 2013,
assigned to the mission of detecting and apprehending illegal entrants between the ports-of-entry.
These illegal entries include aliens, drug smugglers, potential terrorists, wanted criminals, and
persons seeking to avoid inspection at the designated ports of entry due to their undocumented
status. It has been determined that 15 percent of the total agent time nationwide is related to drug
activities. This percentage was determined based on a review of the hours worked by agents, K9
Page 3



officers, and core personnel at various border check-points with narcotic-intensive activities.
Resources for OBP come from the S&E appropriation. Within the S&E appropriation, the
resources for OBP come from the Border Security and Control between the Ports of Entry PPA.

Of the 15 percent oftotal agent time related to drug activities, 3.5 percent of agents' efforts are
related to intelligence and 96.5 percent are related to drug interdiction. These activities include
staffing 35 permanent border traffic checkpoints nationwide, including 924 canine units trained
in the detection of humans and certain illegal drugs that are concealed within cargo containers,
truck trailers, passenger vehicles, and boats. In addition, agents perform line watch functions in
targeted border areas that are frequent entry points for the smuggling of drugs and people into the
United States.

OFFICE OF FIELD OPERATIONS

OFO estimates as of September 2013, 3,543 CBP Officer positions were related to drug
enforcement on Anti-Terrorism Contraband Enforcement Teams (A-TCET). The A-TCET also
works closely with the Passenger Enforcement Rover Team (PERT) and Passenger Analytical
Unit (PAU) teams to coordinate all enforcement activities. CBP estimates that 69 percent of the
A-TCET is devoted to drug enforcement. This estimation was made by experts in the field who
used best estimates to determine the amount of time CBP officers and agriculture specialists
spent in the field on activities devoted to narcotics seizures like cargo and passenger inspections.
The smuggling methodologies and their indicators are similar for both narcotics and anti-
terrorism activities. Drug control resources for OFO come from the S&E appropriation. Within
S&E, resources for OFO come from the Border Security Inspection and Trade Facilitation PPA.

As of September 2013, there were 676 Canine Enforcement officers with assigned dogs. Of this
amount, there are 501 canine teams whose efforts are nearly 100 percent devoted to smuggling
operations. Among the dogs paired with a CBP officer, 125 are Narcotics Detection Teams, 50
Currency and Firearms Detection Teams, and 326 Narcotics/Human Smuggling Detection
Teams. Also included in the total, but not scored for narcotics enforcement were 119
Agricultural Teams and 56 K-9 Trainers and Field Advisors. Thirteen dog handlers did not have
dogs at the time that this data was collected. This was due to recent canine retirements and
extended leave/light duty assignments.

As of September 2013, there were also 17,562 other CBP officers, who, in addition to the
interdiction of contraband and illegal drugs, enforce hundreds of laws and regulations of many
other Federal government agencies. The other Federal Agencies include the U.S. Fish and
Wildlife Service; the Bureau of Alcohol, Tobacco, Firearms and Explosives; and the Bureau of
Export Administration, among many others. CBP subject matter experts estimate that roughly
30 percent of these CBP officers' time is devoted to drug-related activities. Of the percent of
OFO's resources related to drug activities, 17.3 percent is related to intelligence and 82.7 percent
is related to drug interdiction. Resources for OFO come from the S&E appropriation. Within the
S&E appropriation, the resources for OFO come from the Border Security Inspection and Trade
Facilitation PPA.
Page4




OFFICE OF INFORMATION TECHNOLOGY

0 IT supports the drug enforcement mission through the acquisition, and support and
maintenance, of technology such as non-intrusive inspection (Nil) systems and mission critical
targeting software systems. OfOIT's spending, 30 percent of the Enforcement Technology
Center (based on Nil technology deployed), 25 percent of Automated Targeting Systems
(Passenger, Narcotics, and Anti-Terrorism) software costs, 50 percent of the Treasury
Enforcement Communications System (TECS), and 10 percent of data center operations costs is
estimated to be in support of the drug mission. Of the percent ofOIT's resources related to drug
activities, 30 percent is related to intelligence and 70 percent is related to drug interdiction.
Resources for 0 IT come from the Automation Modernization appropriation.

OFFICE OF TRAINING AND DEVELOPMENT

OTD provides training courses funded via the National Training Plan. Specific training
programs involving drug control activities include the canine training programs and basic,
specialized, and advanced training for CBP officers. These specific training programs provided
by OTD are related to drug interdiction activities, not for drug intelligence activities. Other OTD
resources were attributed to drug enforcement activities based on the diverse nature of OTD' s
programs, such as anti-terrorism, development of national programs, career development,
leadership, new course design/development, and succession management for the workforce.
OTD's methodology evaluates the number of course hours dedicated to drug interdiction within
the NTP. For each course, it compares drug interdiction course hours against total course hours
to determine the percentage for drug interdiction. Resources for OTD come from the S&E
appropriation, specifically the Headquarters Management & Administration PP A.

OFFICE OF TECHNOLOGY INNOVATION & ACQUISITION

CBP is the lead agency within DHS for the development and deployment of border technology
and tactical infrastructure to secure America's borders. OTIA's programs deliver detection and
surveillance technology systems to both the southwest and northern borders. These technologies
increase situational awareness and assist law enforcement personnel in identifying and resolving
illegal activity. For this drug control estimate, based on the nature of these expenditures, OTIA
is applying the Border Patrol ratio of 15 percent to the entire account. OTIA funding is solely
related to drug interdiction activities. Resources for OTIA come from the Border Security
Fencing, Infrastructure, & Technology (BSFIT) appropriation.

OFFICE OF AIR & MARINE OPERATIONS

OAM's core competencies are air and marine interdiction, air and marine law enforcement, and
air domain security. In this capacity, OAM targets the conveyances that illegally transport
narcotics, arms, and aliens across our borders and in the Source, Transit, and Arrival Zones. In
FY 2013, OAM P-3s flew 6,050 hours in drug control efforts which represent 91 percent of all
Page 5



OAM P-3 hours. These hours were in support of Joint Interagency Task Force-South in the
Source and Transit Zones. OAM P-3's participated in the interdiction of 119,195 pounds of
cocaine. This equates to 19.7 pounds of cocaine for every counternarcotic hour flown.
Since September 11, 2001, OAM has steadily increased its support to counter-terrorism by
developing a more cohesive and integrated response to national security needs, as well as placing
more emphasis on illegal immigration. Currently, OAM is dedicating significant assets and
personnel in support of Operation Halcon, a U.S./Mexico interdiction initiative, and in support of
OBP's southwest border illegal alien intervention.

Using flight hours spent performing drug-related activities, OAM has determined that 85.62
percent o.fthe budget resources that support OAM are considered to be drug-related. Of the total
flight hours flown by OAM, 22.03 percent were related to intelligence.

2. Methodology Modifications

The drug control methodology for obligations used in FY 2013 remained the same as the
methodology used in FY 2012 for the previously reported organizations. The only change that
occurred in FY 2013 was as a result of Congress' realignment of CBP's accounting structure.
The realignment moved OIT's funding from S&E appropriation to the Automation
Modernization appropriation which added this account as a source of drug control resources.
While CBP's methodology did not change, the appropriation source for some offices did and has
been noted in the Drug Methodology section.

3. Material Weaknesses or Other Findings

Pursuant to CBP's FY 2013 Internal Control Assurance Statement, the following financial
weaknesses, reportable conditions, or non-conformance could affect the reporting of drug control
budget obligations.

Reporting Pursuant to Federal Managers' Financial Integrity Act Section 4. 31 U.S.C. 3512 (d) (2)
(B):

     a. Financial Systems Security - Non-Conformance of Applicable Laws/DHS Directives

The DHS Office of the Inspector General (OIG) continues to identify Information Technology
(IT) general and application control weaknesses at CBP. While auditors have closed out 29 of
the FY 2012 IT findings, 12 new findings have been identified during the FY 2013 financial
statement audit. CBP will continue to remediate these findings in FY 2014. This weakness did
not affect CBP' s ability to report complete and accurate obligation data in the Table of Drug
Control Obligations.

4.     Reprogrammings or Transfers

Due to the FY 2013 sequestration, CBP submitted reprogramming and transfer requests, in part,
to ensure that Border Patrol Agent and CBP Officer staffing levels and associated payroll
Page6



requirements could be fully funded. The reprogrammings were approved by both Congress and
the Office ofNational Drug Control Policy (ONDCP).

5. Other Disclosures

There are no other disclosures that CBP has determined are necessary to clarify any issues
regarding the data reported under ONDCP Circular, Accounting of Drug Control Funding and
Performance Summary, dated January 18,2013.

B.    Assertions

1. Obligations by Budget Decision Unit

Not Applicable - As a multi-mission agency, CBP is exempt from reporting under this section as
noted in the ONDCP Circular, Accounting of Drug Control Funding and Performance Summary,
Section 6(b)(1), dated January 18, 2013.

2. Drug Methodology

CBP asserts that the methodology used to estimate drug enforcement related obligations is
reasonable and accurate. The criteria associated with this assertion are as follows:

         a. Data

     The estimate of drug enforcement related obligations is based on the methodology described
     in section A.1 above, and presents a fair and accurate picture of the CBP drug enforcement
     mission.

        b. Financial Systems Security

     Despite the IT general and application control weaknesses noted in section A.3, CBP's
     financial systems are capable of providing data that fairly represent, in all material respects,
     aggregate obligations. The drug methodology described in section A.1 above is used to
     estimate what portion of these obligations may reasonably be considered to be associated
     with drug enforcement related activities.

3. Application of Drug Methodology

The methodology described in section A.1 above was used to prepare the estimates contained in
this report.

4. Reprogrammings or Transfers

Pursuant to 21 U.S.C. 1703 (c) (4) (A), the ONDCP Circular on Budget Execution (revised
January 18, 2013) prohibits agencies from submitting to Congress reprogramming or transfer
Page7



requests that would result in a decrease or increase of $1 million or more in funding included in
the National Drug Control Program budget without obtaining prior approval from the Director of
National Drug Control Policy. CBP submitted reprogrammings/transfers that affected the drug
control budget during FY 2013.

Reprogrammings and transfers made to CBP in FY 2013 were approved by ONDCP's Acting
Associate Director for Performance and Budget on May 17, 2013 and July 8, 2013.

5. Fund Control Notices

The Director ofNational Drug Control Policy did not issue a Fund Control Notice for CBP for
FY 2013.
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix A  
   Report Distribution  
                           
   Department of Homeland Security      
    
   Secretary  
   Deputy Secretary 
   Chief of Staff    
   Deputy Chief of Staff 
   General Counsel 
   Executive Secretary  
   Director, GAO/OIG Liaison Office 
   Assistant Secretary for Office of Policy 
   Assistant Secretary for Office of Public Affairs 
   Assistant Secretary for Office of Legislative Affairs 
   DHS Component Liaison 
   Chief Privacy Officer 
    
   Office of Management and Budget    
    
   Chief, Homeland Security Branch   
   DHS OIG Budget Examiner 
    
   Office of National Drug Control Policy 
    
   Associate Director for Performance and Budget 
    
   U.S. Customs and Border Protection 
    
   Commissioner 
   Chief Financial Officer 
   Audit Liaison 
    
   Congress    
    
   Congressional Oversight and Appropriations Committees, as appropriate 
    
     
    



www.oig.dhs.gov                                                             OIG-14-41
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security
       Office of Inspector General, Mail Stop 0305
       Attention: Office of Investigations Hotline
       245 Murray Drive, SW
       Washington, DC 20528-0305

You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
